<html>
<title> - PUTTING AMERICA BACK TO WORK: THE ROLE OF WORKFORCE DEVELOPMENT AND SMALL BUSINESS REHIRING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  PUTTING AMERICA BACK TO WORK: THE ROLE OF WORKFORCE DEVELOPMENT AND 
                        SMALL BUSINESS REHIRING

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON INNOVATION AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             JULY 16, 2020

                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           

                               

            Small Business Committee Document Number 116-087
             Available via the GPO Website: www.govinfo.gov
             
             
             
                            ______

               U.S. GOVERNMENT PUBLISHING OFFICE 
41-298                 WASHINGTON : 2021             

             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1
Hon. Troy Balderson..............................................     2

                               WITNESSES

Dr. Demetra Smith Nightingale, Institute Fellow, Urban Institute, 
  Washington, DC.................................................     5
Ms. Kelly Folks, Arapahoe/Douglas Workforce Director, Workforce 
  Center, Centennial, CO, testifying on behalf of Workforce 
  Boards and Centers and the Rocky Mountain Workforce Development 
  Association (RMWDA)............................................     6
Mr. Joe Schaffer, President, Laramie County Community College, 
  Cheyenne, WY, testifying on behalf of the American Association 
  of Community Colleges..........................................     8
Ms. Kelly Moore, Vice President, GKM Auto Parts Inc., Zanesville, 
  OH.............................................................    10

                                APPENDIX

Prepared Statements:
    Dr. Demetra Smith Nightingale, Institute Fellow, Urban 
      Institute, Washington, DC..................................    21
    Ms. Kelly Folks, Arapahoe/Douglas Workforce Director, 
      Workforce Center, Centennial, CO, testifying on behalf of 
      Workforce Boards and Centers and the Rocky Mountain 
      Workforce Development Association (RMWDA)..................    26
    Mr. Joe Schaffer, President, Laramie County Community 
      College, Cheyenne, WY, testifying on behalf of the American 
      Association of Community Colleges..........................    33
    Ms. Kelly Moore, Vice President, GKM Auto Parts Inc., 
      Zanesville, OH.............................................    40
Questions and Answers for the Record:
    Questions from Hon. Balderson to Ms. Kelly Folks and 
      Responses from Ms. Kelly Folks.............................    41
    Questions from Hon. Balderson to Mr. Joe Schaffer and 
      Responses from Mr. Joe Schaffer............................    44
    Questions from Hon. Balderson to Ms. Kelly Moore and 
      Responses from Ms. Kelly Moore.............................    46
Additional Material for the Record:
    International Franchise Association (IFA)....................    49


  PUTTING AMERICA BACK TO WORK: THE ROLE OF WORKFORCE DEVELOPMENT AND 
                        SMALL BUSINESS REHIRING

                              ----------                              


                        THURSDAY, JULY 16, 2020

                  House of Representatives,
               Committee on Small Business,
          Subcommittee on Innovation and Workforce 
                                       Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:00 p.m., via 
Webex, Rayburn House Office Building, Hon. Jason Crow [chairman 
of the Subcommittee] presiding.
    Present: Representatives Crow, Finkenauer, Kim, Davids, 
Houlahan, Balderson, Hern, and Chabot.
    Chairman CROW. Good afternoon. I call this meeting to 
order.
    I want to thank everyone for joining us this afternoon for 
our Committee's official remote hearing. I want to make sure to 
note some important requirements of this hearing according to 
the House rules.
    House regulations requires that members be visible through 
a video connection throughout the proceedings. Please keep your 
cameras on. Also, if you have to participate in another 
proceeding, please exit this one and log back in later. 
Remember to remain muted until you are recognized to minimize 
background noise.
    Even before the COVID-19 pandemic, technological 
advancement and changing trends in the labor market were 
disrupting jobs and the skills needed to perform them. The 
coronavirus pandemic has in many ways accelerated these changes 
and highlighted the urgent need for workers to have the 
knowledge, skills, and abilities needed in the 21st century 
economy. Workers and businesses in every industry, especially 
those hardest hit by COVID-19 must figure out how they can 
adapt to these changing conditions. In particular, all firms 
have a harder time finding the employees that fit their needed 
skillsets. However, as we all know, all businesses will need to 
play an outside role in getting the country back to work. 
Before the pandemic, small firms accounted for 99 percent of 
all private sector employers and created nearly two-thirds of 
all new private sector jobs. Even when unemployment was low and 
there were still underlying problems, like a growing skills gap 
that severely undercuts its public workforce system.
    The Federal government was failing to prepare our people 
for the future workforce even as our workforce was evolving. 
This chronic underfunding of our Nation's workforce development 
program not only hurt the ability of many workers to get ahead; 
it neglected the growing needs of our Nation's small businesses 
as the driver of economic growth and job creation.
    Since the beginning of the COVID-19 pandemic, more than 45 
million workers have filed for unemployment. The unemployment 
rate stands at 11.1 percent, and experts say that in reality it 
is higher than that. This unemployment crisis is particularly 
hurting young people, women, and people of color.
    Retail clerks, restaurant servers, housekeepers and 
hospitality workers are now out of job and may not have jobs to 
go back to. Some experts estimate that upwards of 42 percent of 
jobs that disappeared during the pandemic may never return.
    And this is why we are here today, to discuss at length how 
our Nation's workforce gets the skills needed for the 21st 
century to help small firms rehire and retain more employees. 
In the midst of this unprecedented crisis, we must be bold in 
preparing our people for the future of work and that will only 
happen if we have ``an all hands on deck'' approach. That 
includes extending access to new and innovative job training 
programs like remote apprenticeships. It means we must 
facilitate intense collaboration between Federal, state, and 
local government, the private sector, and our Nation's colleges 
and universities to determine what skills need to be trained 
and how to help employers find talent.
    That means we might to rethink incentives we provide 
employers, especially for small businesses so they are able to 
invest in the workforce that meet the needs of their particular 
industry.
    I look forward to hearing from our expert witnesses who 
will be able to talk much more about the changing nature of 
work and the skills necessary to get ahead in the 21st century, 
as well as the way the local workforce boards, community 
colleges and Federal policy can help smaller firms find the 
workers they need to grow and once again become the driver of 
economic growth and job creation.
    Again, I want to thank the panelists for joining us here 
today, and I now yield to the Ranking Member, Mr. Balderson, 
for his opening statement.
    Mr. BALDERSON. Thank you, Mr. Chairman, for holding this 
hearing today.
    The coronavirus has dealt a devastating blow to our Nation. 
Neither our people, nor our economy, is immune to its negative 
impacts. However, Americans are resilient and strong. Our 
healthcare providers have fought tirelessly to save lives. Our 
school systems have rapidly evolved to meet remote learning 
demand. Many of our small businesses from restaurants to 
manufacturers have adapted to overnight challenges, loss of 
revenue, and ever-shifting local and Federal guidance.
    I am inspired by the flexibility, agility, and creativity 
of small businesses in my district and across this country to 
demonstrate the confidence we need during the recovery phase.
    According to the Department of Treasury, the Paycheck 
Protection Program, also known as the PPP, supported 51 million 
jobs. This means PPP supported over 80 percent of all small 
business employees nationwide. I was proud to work with 
Congresswoman Angie Craig, who also serves on this Committee, 
to ensure the program would remain available through August 
8th.
    As states continue to move into the next phases of this 
public health emergency and lift restrictions, Congress must do 
more to prepare to protect small businesses and their 
employees. Many are facing atypical expenses such as the 
purchase of personal protective equipment (PPE) to safeguard 
employees and customers and on top of recent unexpected 
declines in revenues.
    To meet the burden, I introduced H.R. 7216, the Small 
Business PPE Tax Credit Act with my fellow Small Business 
Committee Representative Joyce of Pennsylvania and two partners 
from across the aisle, Representative Brenda Lawrence of 
Michigan and Representative Mike Quigley of Illinois. Under the 
Small Business PPE Tax Credit Act, certain small businesses and 
nonprofit organizations will qualify for a tax credit of up to 
$25,000 for the purchase and installation of PPE intended to 
reduce the risk of COVID-19 transmission.
    In addition to the PPE, new and returning employees will 
need training on social distance requirements and other 
coronavirus related changes, procedures and regulations. Both 
employers and employees will need clear guidance and acceptable 
resources from the local, state, and Federal government.
    Here is another opportunity for us to work together. Our 
workforce has the flexibility, agility, and creativity to meet 
the demands of our new normal now. It just needs Congress to 
support them in this effort.
    Thank you, Mr. Chairman, and I yield back.
    Chairman CROW. Thank you, Mr. Balderson. I appreciate your 
comments and all of your hard work and the work you are doing 
on both sides of the aisle to rep this issue.
    I would like to take a moment to explain how this hearing 
will proceed. Each witness will have 5 minutes to provide a 
statement, and each Committee member will have 5 minutes for 
questions. Please ensure that your microphone is on when you 
begin speaking and that you return to mute when you are 
finished. That might be the most important thing. It happens 
all the time.
    With that, I would like to thank our witnesses for taking 
time out of their busy schedules to join us.
    Our first witness today is Dr. Demetra Smith Nightingale. 
Am I pronouncing that right? Is it Demetra or Demetra?
    Dr. NIGHTINGALE. Demetra.
    Chairman CROW. Demetra. Dr. Demetra Smith Nightingale, an 
institute fellow at the Urban Institute where her research 
focuses on social, economic, and labor policy issues. She was 
chief evaluation officer at the U.S. Department of Labor from 
2011 to 2016 where she developed what is recognized as one of 
the premier evaluation units in the Federal government. Prior 
to that she taught graduate courses in social policy and 
program evaluation at Johns Hopkins and was currently a 
professorial lecturer at the Trachtenberg School of Public 
Policy and Public Administration at George Washington 
University. Thank you, Dr. Nightingale for being here today.
    Our second witness is Ms. Kelly Folks, the director of 
Arapahoe Douglas Workforce Center. She has over 20 years of 
experience working to develop innovative workforce throughout 
the programming specifically designed to serve both jobseekers 
and business and industry. She is viewed as a local, regional, 
state, and national leader in workforce and economic 
development. Ms. Folks is the president of the Rocky Mountain 
Workforce Development Association, serves as a board member of 
Region 8 with the National Association of Workforce Development 
Professionals, and serves as the Region 4 liaison for the 
National Association of Workforce Boards. Thank you, Ms. Folks, 
for being here today.
    Our third witness is Dr. Joe Schaffer. Dr. Schaffer is 
currently the president of Laramie County Community College, 
Wyoming's largest community college. He considers himself a 
community college evangelist after an associate degree changed 
his life for the better. Prior to joining LCCC, he spent nearly 
a decade at Montana State University-Great Falls, serving in a 
variety of academic and administrative roles. At age 34, he was 
appointed the dean and CEO, becoming one of the youngest 
college executives in the Nation at the time. He is currently 
serving on the Board of Directors of the American Association 
of Community Colleges and sits on their Commission of Small and 
Rural Colleges. Thank you, Dr. Schaffer for being here today.
    I will now yield to the Ranking Member, Mr. Balderson, to 
introduce our final witness.
    Mr. BALDERSON. Thank you, Mr. Chairman.
    It is with great pleasure for me today, a personal friend, 
to introduce, and we have known each other since they came into 
our local community since 2004 when her husband and I and her 
sons have chased each other through the woods on motorcycles. 
So it is always good.
    Our final witness today is Kelly Moore. Kelly is the vice 
president of GKM Auto Parts, which is based on Zanesville, 
Ohio. In 2004, the opportunity presented itself for Kelly and 
her husband Greg to purchase their first two Auto Parts 
locations. They began by employing 16 workers, as well as 
several family members. In 2006, they bought two additional 
stores for a total of four with locations in Zanesville, 
Dresden, Conshohocken, and West Lafayette. Additionally, Ms. 
Moore currently serves on our 12th Congressional District Small 
Business Advisory Board, comprised of small businesses from 
every county in the district and representing many industries. 
There, she helps me, informing on challenges small businesses 
face on the ground. Thank you for taking the time out of your 
busy schedule to join us today, Ms. Moore, Ms. Kelly Moore. I 
look forward to hearing your testimony and great to see you. 
Thank you.
    Chairman CROW. Thank you, Mr. Balderson. And thank you all 
for being here today.
    I would like to now begin by recognizing Dr. Nightingale 
for 5 minutes. Dr. Nightingale, you can see the timer on the 
screen here. We look forward to your comments.

  STATEMENTS OF DEMETRA SMITH NIGHTINGALE, INSTITUTE FELLOW, 
   URBAN INSTITUTE; KELLY FOLKS, ARAPAHOE/DOUGLAS WORKFORCE 
  DIRECTOR,WORKFORCE CENTER; JOE SCHAFFER, PRESIDENT, LARAMIE 
COUNTY COMMUNITY COLLEGE; KELLY MOORE, VICE PRESIDENT, GKM AUTO 
                           PARTS INC.

             STATEMENT OF DEMETRA SMITH NIGHTINGALE

    Dr. NIGHTINGALE. Thank you, Chairman Crow, Ranking Member 
Balderson, and members of the Committee. I appreciate the 
opportunity to testify before you today on the workforce 
development system and small businesses.
    The Nation's public workforce development system is a 
partnership of Federal, state, and local governments charged 
with providing employment-related services to both workers and 
businesses and serve over 2,000 local one-stop career centers, 
also called American job centers, the system which is 
authorized in the Workforce Innovation Opportunity Act and the 
Wagner Peyser Act, operates a free labor exchange nationwide.
    One goal of the system is to help anyone find a job, 
especially the unemployed and underemployed, and dislocated 
workers. Another goal is to help businesses by matching skilled 
job seekers to businesses that are hiring. Most local job 
centers also make space available to businesses to conduct 
interviews. They hold workshops for jobseekers and conduct 
various types of training assessments for workers.
    So what works in hiring and skills training? Evaluation 
suggests four points that I would like to make.
    First, public investment in training fills an important 
gap. Employers, of course, provide most job training in the 
United States. Small businesses are less able than large 
corporations to invest much in training, even in good economic 
times. The public workforce development system helps fill the 
training gap by focusing on smaller businesses and low to mid-
level workers. The system's very limited funding, though, as 
the Chairman just mentioned, covers only a small fraction of 
the hundreds of millions of businesses and workers in the 
Nation.
    The second point is that training connected to work has the 
most positive effect. Not all training is the same, and not all 
training, whether it is public or private, is effective. But 
evaluations show that the most effective job training is that 
which is connected directly to real work, real jobs, rather 
than standalone training not aligned with jobs that are in 
demand. This includes integrated training models, such as 
apprenticeships and on-the-job training with public subsidies.
    The third point that I would like to make is that 
individualized staff-assisted coaching and career services are 
important. Several evaluations are now finding that the types 
of staff-assisted coaching and services that local one-stop 
career centers provide and sometimes provide virtually are 
important. Trainees who receive assistance in selecting their 
training do better than those who make choices on their own 
without coaching.
    The fourth point is that comprehensive and integrated 
models work equally well for youth and that as with adults, 
training that is work-based is most effective for youth, 
especially those who have less than college and those who are 
just coming out of high school or college.
    There are at least three ways that small businesses can 
connect and avail themselves of services in the workforce 
system. First, it is important for all businesses to stay 
abreast of the shifts in demand or of skills in the labor 
market and the state labor market information system which uses 
the Bureau of Labor Statistics methodology and updates the data 
regularly. As we have already heard, there have been changes in 
the demand for technology and virtual skills, accelerated by 
the COVID crisis in telemedicine, virtual customer service, 
delivery, transportation, retail, and online support. Training 
workers now can have longer term payouts and investment in the 
future.
    Second, small businesses can partner directly with 
workforce development systems for training. Many Federal grants 
require employer partnerships and small businesses can be those 
partners. And third, businesses should prepare for a long-term 
period of unemployment, high unemployment and hopefully from 
additional funding that helps to expand the services that are 
available.
    In conclusion, the workforce development system trains 
workers who might not be otherwise able to receive it and 
provides support and assistance to businesses that might not 
have all the resources to do it on their own. Businesses can 
and do play a critical role, and small businesses can be 
prepared to expand their role by actively partnering and 
connecting with the local workforce development system and be 
aware of new funding as it becomes available. Thank you.
    Chairman CROW. Thank you, Dr. Nightingale. Perfect timing 
as well I will add. I appreciate your comments very much.
    Ms. Folks, you are recognized for 5 minutes.

                    STATEMENT OF KELLY FOLKS

    Ms. FOLKS. Good afternoon. I want to thank the Subcommittee 
for the opportunity to discuss the needs of the workforce 
system. Although WIOA has not been cut at a national level, 
unfortunately, the current formula utilized for allocating 
funding to states and then lags with the market and the current 
demands, therefore it makes it very difficult at a local level 
to provide the level of service delivery needed, especially 
during times such as this. The WIOA system has not been funded 
nationally over the past several years at a level to keep up 
with the demand or the speed of the market.
    In order for the workforce system to meet the demands of 
the jobseekers and business during the pandemic, the system 
needs resources and funding. During the Great Recession, the 
workforce system was put to the test, receiving an influx in 
funding to serve the communities through a variety of 
mechanisms. The system as a whole rose to that challenge. This 
type of bold and decisive action is needed even more today with 
the current economy devastated by the pandemic. Please consider 
additional resources added to the overall WIOA and Wagner 
Peyser funding streams, additional resources for youth 
employment programming, and additional resources for local 
areas to be able to provide more robust business service 
delivery which allows for the innovation needed to meet the 
demands of business; in particular small businesses.
    Our response to COVID-19 has taken the workforce system 
nationally and within Colorado to the next level. When the 
State of Colorado shut down for several weeks during the height 
of cases in our state, we had less than 48 hours to get all of 
our services remote and virtual. Many local regions in Colorado 
developed and implemented local call centers to assist the 
state with the influx and demand on the unemployment calls to 
the system by jobseekers and businesses. All services went 
virtual with absolutely no stop in service delivery to the 
jobseekers or the businesses.
    The offices have reopened; however, due to the positive 
results in offering virtual service delivery, both service 
models continue to date throughout the state. The current 
trends that we are seeing nationally, within the State of 
Colorado and at a local level include people not going back to 
work with the company that they were furloughed from due to the 
company either closing, or if the particular job is no longer 
available. The need for layoff aversion methodologies and 
incumbent worker training availability to be put in place with 
more flexibility to ensure that businesses can continue to 
retool and skill up their current workforce rather than lay 
off.
    Although work-based learning is a key factor in being able 
to put funding into local businesses, right now businesses are 
having trouble with having the time to look into developing 
apprenticeship programs or allow for on-the-job trainings. They 
do not have the bandwidth. Flexibility in being able to pay 100 
percent for a period of time of a jobseeker's on-the-job 
training is needed.
    A need for more flexibility in the formula funds so that 
local communities can build the programming needed to put 
people back to work quickly. And public service employment 
should be re-examined to be able to place unemployed 
individuals in opportunities which assist both our local 
governments with recovery and their families with a paycheck. 
Some examples of innovative business practices during the 
pandemic include virtual business roundtables and conferences 
with topic areas driven by the business community.
    Another example, the Close the Gap Program, an initiative 
with the Arapahoe/Douglas Workforce Board and one-stop, 
Arapahoe County Government and Arapahoe Community College 
utilizing CARES Act funding. A very significant technology gap 
was realized in the height of the pandemic. This program closes 
the technology gap for low-income individuals. Once the 
individual completes the program successfully, they will 
receive a laptop in order to be able to accept work-from-home 
employment opportunities.
    Some additional innovative best practices that have been in 
place within the State of Colorado pre-COVID and continue to be 
very relevant during the pandemic are virtual hiring events 
through the Connecting Colorado platform utilized statewide, 
the establishment of the Business Service Alignment Group, 
which representatives from each local area and the Colorado 
Department of Labor and Employment. This group works to align 
business practices to ensure business and industry receive the 
same services and messaging and the formation of a data expert 
group with representatives from each local area who work to 
respond to data requests for business and industry, education, 
economic development, chambers, nonprofit, and other government 
agencies, as well as reporting the ROI of the workforce system 
for Colorado. The Nation's workforce system has the components, 
partnerships and infrastructure in place which will make 
certain that the current unemployment crisis from the pandemic 
can be addressed.
    In short, the workforce system stands ready to put America 
back to work. Thank you for your time.
    Chairman CROW. Thank you for your opening statement, Ms. 
Folks.
    Dr. Schaffer, you are recognized for 5 minutes.

                   STATEMENT OF JOE SCHAFFER

    Mr. SCHAFFER. Good afternoon, Chairman Crow, Ranking Member 
Balderson, and members of the Committee. It is an honor to be 
here representing my college, Laramie County Community College 
(LCCC), about 100 miles straight north of the good Chairman's 
district. But also to be here on behalf of the American 
Association of Community Colleges that has more than 1,000 
members.
    As you heard, I have been working with a commission on 
small and rural colleges for the past few years and that will 
likely cover my testimony today.
    Mr. Chairman, there are not many things that are more 
American than its community colleges for our small businesses. 
Unfortunately, we work hand-in-hand, whether it is through 
hunting resources like small business development centers, four 
chapters or business retention and expansion programs, or it is 
central for our mission providing customized training and 
workforce development programs tailored to the needs of our 
community's businesses.
    Today, I want to touch on four specific ways community 
colleges support America's Main Streets. And while we have many 
examples, I want to be clear that we need to be doing 
substantially more in these areas. And selfishly, I believe we 
need a specific focus on helping our rural communities ramp up 
these efforts.
    The first is entrepreneurship and small business start. 
Community colleges have a rich history of developing and 
delivering programs that prepare jobseekers for real 
opportunities within their communities, states, and regions, so 
I believe we need a fundamental shift from focusing on just 
developing jobseekers, equally emphasizing development of job 
creators. As you likely know, between the late 1970s and 2012, 
the share of young businesses, those a year or younger declined 
by more than 40 percent. Currently, census data paints a pretty 
scary picture for America, one where more businesses are 
closing to new ones opening. The business recruitment model has 
sort of been the holy grail of economic development. We need to 
shift our focus from business recruitment of the primary 
economic development strategy to a mindset focused on 
entrepreneurship and public community colleges are helping 
drive the shift.
    The second thing is small business growth and expansion. As 
you stated, Mr. Chairman, small businesses have accounted for 
the majority of new private sector jobs.
    But this growth does not come without intention and 
support. Community colleges have and continue to play an 
instrumental role in the growth and expansion of small 
businesses. One of the reasons we collectively support the 
Department of Education's Reimaging Workforce Preparation 
grants that include business incubators as one of the program's 
two primary priorities. Helping small businesses move from 
start-up to sustained, stable growth should be a policy 
priority for us all.
    The third area is technical assistance. Small businesses, 
by their very nature, are small. Owners and employers wear 
multiple hats and they seldom have in-house access to technical 
assistance, professional development, R&D, or other 
professional and scientific services. Community colleges have 
historically stepped up, and stepped in, to help small 
businesses in this area, either through the direct provision of 
assistance or through the coordination with community partners.
    The last area, and probably the one that we are most well-
known for is workforce development. Community colleges have 
perhaps been the most progressive and instrumental in 
supporting small business in the realm of workforce 
development. Workforce development has been a hallmark of the 
community college mission for nearly 100 years. But there are 
two primary challenges that we face with workforce development. 
The first is the sheer lack of individuals available for work, 
especially in rural areas. Aging populations, lower birth 
rates, and issues with immigration policy have all impacted the 
availability of workers.
    And as you said, Mr. Chairman, the other one is the skills 
gap. You stated numerous times that there are jobs available 
but not the people with the skills necessary to successfully 
fill them. I am proud of LCCC's work and really being at the 
helm tackling this challenge, our partnership with the 
Department of Labor on expanding community college 
apprenticeships or tailored short-term certificate programs, 
one of the things that we believe is essential and why we 
support short-term Pell or the alignment of our degree 
certificate programs that support workers and employers 
directly.
    And there are policy things that can help us along this 
way. We know that there is a skills gap, and one of the issues 
with the skills gap is insufficient support for workforce 
education at community colleges and other entities, especially 
so in rural areas. That is why we support establishing a major 
community college job training program to help the country move 
beyond and through the pandemic.
    Mr. Chairman, I want to conclude with just two other real 
quick thoughts that I think are germane to the conversation and 
they deal with this increasing divide between rural and urban 
America. We know that the formula for prosperity in rural areas 
is simple: economic activity plus economic opportunity equals 
community prosperity. We now have to start considering policy 
that helps us redistribute population and redistribute jobs out 
of our metro areas and back across rural America if we want to 
see this country and its small businesses continue to thrive.
    Mr. Chairman, that concludes my remarks. I look forward to 
and stand ready for questions. Thank you.
    Chairman CROW. Thank you, Dr. Schaffer. I appreciate your 
opening remarks.
    Ms. Moore, you are now recognized for 5 minutes.

                    STATEMENT OF KELLY MOORE

    Ms. MOORE. Thank you very much, Chairman, and Ranking 
Member Balderson for inviting me to give testimony.
    I live the dream. I am a small business owner and operator 
of a family-run business which Troy earlier described.
    As a small business, our 19 employees are a valuable asset 
to our company. Well trained, knowledgeable employees, those 
are the keys to the success, stability, and growth potential 
for any business, especially our business.
    In the past few years, it has been challenging for 
businesses to fill open positions with quality candidates. 
There is a shortage, particularly in our region, of qualified 
candidates for highly skilled positions. The National 
Federation of Independent Businesses reported results of a 
member survey in 2019 that 22 percent of small employers who 
have hired an employee for their most skilled position in the 
last 2 years lowered the minimum qualifications for applicants 
that they previously required, and 24 percent lowered them for 
the most common, less skilled positions.
    As a leadership member of NFIB, I hear firsthand that 
hiring and retaining qualified employees, particularly in the 
technical and mechanical trades in our region, is hindering the 
operations of small businesses. When a less than qualified 
candidate is hired, improving that employee's skills puts a 
strain on the tight margins with which small businesses 
normally operate and puts a strain on the timeframe of 
production. Money in the budget which could be spent on 
expanding the business and hiring additional employees is spent 
on training the less than qualified new hires. Finding the time 
to train is also a significant burden to the small business 
owners.
    I just have a quick anecdotal account of a conversation 
with a local garage shop owner that illustrates this issue.
    I was dropping off parts. He asked me if we knew of any 
mechanics looking for work. I asked if he had tapped into the 
recent grads from the local tech program. He said he had worked 
with a highly recommended grad the year before, but the tech 
was inadequately trained in the basics. The shop owner said he 
spent too much time retraining him on basics such as a simple 
oil change. He was not able to stay on his schedules and it was 
damaging the customer relationships, so they parted ways.
    This challenge has become more pronounced post COVID-19 
pandemic. Small businesses who furloughed workers in order to 
stay solvent during work shutdowns and slowdowns are reporting 
that some workers are slow to return and credit this primarily 
to the Federal stimulus that has enhanced their unemployment 
benefits. The investment in time and treasure in these 
employees' training is a significant loss when they will not 
return to the workforce. It is creating a strain on the 
companies when they can least afford this strain.
    Local education, at all levels, primary, secondary and 
post-graduate, is focused on developing the skills needed for 
the jobs available in my area of Ohio. The recent state budget 
decreases to schools in Ohio due to the pandemic will impact 
this goal. When schools can achieve this goal of marketable 
skills of students, the financial burden on an employer is 
eased and the employee would enter the job with the skill set 
at a level to be productive and to earn better wages. Training 
budgets could then be spent on boosting employees' skills or on 
wages or benefits to retain that employee, which would benefit 
both the employee and the employer.
    Also valuable to small businesses is a focused and robust 
retraining program available to assist the displaced workers 
and adults with a desire to learn a new trade of which we in 
the small business community feel there will be a significant 
number. A larger investment in this arena would reap benefits 
not just to the employer but to the quality of life for the 
employee and the community. I believe a consolidated effort 
between Federal and state agencies related to training and 
vigorous marketing to those small businesses regarding these 
programs would be most helpful.
    Thank you very much for your time.
    Chairman CROW. Thank you very much.
    So there is an awful lot to talk about with everything that 
you all mentioned in your opening statements. There is a lot of 
content here on a very important topic right now.
    So I am going to begin by recognizing myself for 5 minutes 
for a few questions before we go to the other members.
    So I am going to begin on the issue of the technical skills 
and trade apprenticeships because I know there are 
apprenticeships that could be virtualized, that we can make 
virtual, but it is awfully hard to train somebody to be a 
pipefitter, an electrician, a plumber, a diesel mechanic in a 
virtual setting. So I would really love to hear from you, how 
are we doing that? Are we going to be able to do that in part 
virtually but also do in-person resident training programs? I 
would love to hear your experiences with those programs in 
particular.
    Maybe we will start in reverse order from order of the 
statements. So Ms. Moore, I would love to hear your thoughts.
    Ms. MOORE. What I am hearing from our customers in the 
diesel mechanic area particularly is that what is being 
addressed is how to break an engine down, how to refit the 
complicated processes in diesel mechanics. What the business 
owners tell me is that they need them to have a good set of 
basic skills so they can build on that with training. They 
often do not take somebody, a recent grad, and ask them to tear 
apart an engine and put it back together. But they do need the 
employees to have a firm understanding of basic skills. Thank 
you.
    Chairman CROW. Thank you.
    Dr. Schaffer, I mean, you are very much at the front lines 
of this issue. How are you doing in your college?
    Mr. SCHAFFER. Thank you, Mr. Chairman. It is a very astute 
question. Certainly during the pandemic I would say we were 
challenged in many ways this past spring as we shifted to a 
virtual delivery of our instructions. Really, to find ways to 
do that in the technology trades and healthcare areas. I would 
say I was quite pleased and impressed when I think across the 
Nation we saw some great innovation come out of our 
instructors. I have a great story of my automotive tech faculty 
member strapping a GoPro camera to his head and doing virtual 
real-time labs with individuals from their home or in their own 
garages, at their own shops. So there are things we can do, but 
I will be honest; you simply cannot replace the value of hands-
on interactive learning that happens either in the shop, in the 
lab, or through apprenticeship programs, and we found quickly 
that we had to do that and create unique ways for us to in a 
safe way bring our diesel technology students, our welding 
students back to campus to carry those out. And this is the 
same with the apprenticeship programs. We had to work closely 
with our employers and small businesses to find ways for them 
to be able to see value in having the apprentice in their 
environment while they were facing shutdowns and all the issues 
associated with the pandemic. And so it is not idea. There are 
ways we can do it, but I would say we simply cannot replace the 
opportunity for that in-person, hands-on interactivity in these 
areas. And I would say if we do not figure that out, we will 
further restrict the pipeline of new people coming into these 
valuable programs and leading to the critical careers that they 
represent.
    Chairman CROW. Thank you.
    Ms. Folks?
    Ms. FOLKS. Thank you.
    Yes, I would agree with Joe in the matter that it is very 
difficult when it is not in person for the trades, but what we 
have been doing as a workforce system is working hand in hand 
with our community colleges and our trades, different trades, 
to look at how do we work through the social distancing, no 
different than us coming to work ourselves. So how do we work 
through the different social distancing guidelines? How do we 
make sure we make it safe so that we get them back into 
training and get them back into the shop so that they can get 
that on-the-job training? Lockheed Martin actually uses all 
technology to train, and we have been able to keep that 
apprenticeship program going through this through utilizing 
those methodologies.
    Chairman CROW. Thank you.
    Dr. Nightingale?
    Dr. NIGHTINGALE. There are a number of creative examples. 
You have heard of some of them through community colleges 
specifically. And I will just highlight that the Urban 
Institute has a forthcoming report that will be available 
shortly, in a couple of weeks. It has some examples of sort of 
combining virtual and staff-assisted. So they would come from 
some of the studies done over the past decade.
    Chairman CROW. Great. Thank you.
    My time has now expired. I think I will have some 
additional questions, but I do want to make sure we get to all 
the other members first.
    So let's begin with the Ranking Member, Mr. Balderson. You 
are recognized for 5 minutes.
    Mr. Balderson, you are recognized for 5 minutes.
    Mr. BALDERSON. Thank you, Jason. Sorry about that. I lost 
everybody for a second.
    My first question is to the full panel, and whoever wants 
to jump in, jump right in. Every community has felt the ripple 
effects from the government-mandated closures. Why is workforce 
development a key aspect to our recovery at the community, 
state, and national level?
    And no particular order. If anybody wants to answer that, 
go right ahead, please.
    Mr. SCHAFFER. Mr. Chairman, Representative Balderson, Joe 
Schaffer here. I will take a stab at that.
    I think we can take and learn some lessons from the Great 
Recession that is far too close to this. You know, the next 
thing that is going to impact us is COVID-19. During the Great 
Recession what we saw were significant numbers of individuals 
displaced at that time. The jobs they left were not the jobs 
that were there as we recovered, and we are seeing a very 
similar trend here. As those jobs disappear, while we will 
preserve some of them in the service sector, employers are 
being forced in many ways to innovate and rethink how they meet 
their business model, their business expectations. That means 
we will have millions of Americans that will be looking for new 
opportunities and will require training for the jobs that will 
be here as we come out of this pandemic. And it is what makes 
training and workforce development so absolutely essential 
right now. And as I would say, that is especially important in 
rural America where there is a substantial need for those folks 
to find new opportunities for fear that they leave and further 
exasperate the problem of a shrinking population.
    Dr. NIGHTINGALE. If I could answer that. In the Great 
Recession, the recovery funds, the supplemental funds were 
important for a couple of reasons. One, as the additional 
funding that went into the local employment services allowed 
for expanding employment services into remote areas. We saw an 
increase in use of mobile job centers, libraries, and other 
community places were outfitted to allow better access in some 
of the remote areas. But it also was a source for connecting 
subsidized jobs, workers into subsidized jobs in the private 
sector and expanded the OJT type of contracts. And third, we 
know that as we start coming out of the recession, there are 
going to be more people who are looking for jobs and they 
transverse to some of the local employment offices that are 
available. So it is but it is the community for locale or 
rehiring.
    Mr. BALDERSON. Thank you.
    Ms. MOORE. I would just like to add, as a small business 
owner, the Great Recession and the pandemic have diverted our 
funds. We have very limited funds. And so they are diverting 
them away from the requirements of training and more towards 
the requirements to stay in business with PPE, with decreased 
revenues, and with the inability to secure funds otherwise 
right now through banks, just as we had a problem during the 
Great Recession.
    Mr. BALDERSON. Thank you.
    Ms. FOLKS. And if I could just add, this is Kelly with 
Arapahoe/Douglas Workforce, who runs a true one-stop center, 
you know, what we saw, the big difference we are seeing now, 
when we saw at the highest point in the Great Recession, for 
example, Colorado was at an 8.6 percent overall unemployment 
rate. We are seeing in May of 2020 during this COVID at a 10.2 
percent. We have millions of Americans as was stated already 
that are underskilled, underemployed. We had that even when our 
economies were good. We were still getting people coming into 
our workforce center and we were working with businesses to try 
to fill their hardest to fill positions because there really, 
truly was a skill and training gap there. And so that is where 
workforce development and the boards can, in partnership with 
the community colleges, can really put that training back into 
play and be able to help the small businesses and medium 
businesses to get people back to work.
    Mr. BALDERSON. Thank you, Ms. Folks.
    Mr. Chairman, how am I doing? I cannot see my timer.
    Chairman CROW. Fifteen seconds.
    Mr. BALDERSON. I yield back, Mr. Chairman.
    Chairman CROW. The gentleman yields back. Thank you for 
those comments. The gentleman yields his time back.
    Now I would like to recognize the gentlelady, Ms. Davids 
from Kansas for 5 minutes.
    Ms. DAVIDS. Thank you, Chairman Crow, and to Ranking Member 
Balderson for having this hearing today focused on the economic 
recovery that our communities are going to need so badly and 
that, you know, to recognize the workforce skills gap and 
really the workers that we are going to need is something that 
we really need to be thinking about long term.
    As states and communities are reopening across the country 
and we learn more about coronavirus and how small businesses 
are going to be able to at least partially reopen doors, I know 
that that has been helpful for some folks but things still are 
far from normal and we are still figuring out how this is going 
to impact workforce development.
    Dr. Schaffer, I want to start with you, partly because I, 
myself, am a community college graduate. I went to Johnson 
County Community College here in the district that I now get to 
represent, and I spend a lot of time visiting with folks there 
and at the Kansas City Kansas Community College here, too. And 
I know that the education and training opportunity the colleges 
provide are important, essential, and actually a lot more 
innovative than I think people usually recognize and kind of 
mainstream.
    So I am curious. I know you had mentioned the GoPro 
technique and some of the other things that folks are trying to 
do right now for the current students. I am curious what it is 
looking like for people who are reaching out and might be 
interested in enrolling. I guess I am wondering, what are folk 
saying to you? Are they asking you how you are adapting? Are 
they asking what you see as the biggest needs? I am just 
curious what folks are asking about.
    Mr. SCHAFFER. Thank you, Mr. Chairman, Representative 
Davids. Yes, Johnson County Community College, one of the 
finest community colleges in the Nation. It is great to hear 
that you are an alum and support that institution and others.
    You know, it is one of the challenges we face right now. I 
think there is a great uncertainty about what fall looks like 
in education, certainly in K-12. Community colleges are no 
different. For the high demand programs and high demand 
careers, many that we are talking about today in health care 
and the tech and trades areas, those require some type of face-
to-face interaction. And I think as the colleges are waiting 
for perhaps better guidance, perhaps we are all waiting for 
better guidance on how we safely operate in this environment, 
so are people. And what we hear mostly from individuals is I 
know it is an opportunity for me to come back. There may even 
be money on the table to encourage me to come back to college, 
but I can only do that if it is truly safe. And so I think a 
lot of folks are waiting to see what the reopening plans of 
higher education and community colleges are looking like.
    To give you a quick number, our applicants are 
substantially up for fall. Our enrollment is substantially 
down, which tells us many individuals are waiting to see 
essentially what happens. The other issue is like our biggest 
opportunity for retraining is adults in this country at this 
point, especially adults without a post-secondary credential, 
using them to find a way to navigate their own personal lives 
right now and the economic and social pressures on them and 
come back to college. I tell you, it is a significant list, but 
it is one we have got to figure out.
    Ms. DAVIDS. And then, I appreciate that. And you mentioned 
earlier the idea of supporting job creators, in addition to 
figuring out ways to help us get to a workforce that meets that 
skills gap that we keep seeing.
    Dr. Nightingale, I am curious from your perspective what 
you are seeing in terms of the entrepreneurial movement and 
that sort of thing, big picture going into all of this. I do 
not know if folks are looking at that sort of thing, but I 
would be curious.
    Dr. NIGHTINGALE. There are two points that I would make. 
First, certainly, entrepreneurial, sort of like self-employment 
and new business development is critical, but it is not 
necessarily for everybody. And so it has to be very carefully 
planned so that there is a real business plan and understanding 
of what it takes. People sometimes think it is easy to start a 
small business, but I know that the small business owners here, 
Ms. Moore and others will agree, that it is not easy. You have 
to have a lot of planning.
    The second thing is that there are probably more 
opportunities for entrepreneurial endeavors today because of 
the technological advances that are available. So there are 
some opportunities----
    Chairman CROW. The gentlewoman's time has expired, so I 
apologize. I am going to have to move back to that point at a 
different time.
    Ms. DAVIDS. Thanks, Chairman. I yield back.
    Chairman CROW. Thank you.
    Now I would like to recognize the gentleman from Oklahoma, 
Mr. Hern. Mr. Hern, you are recognized for 5 minutes.
    Mr. HERN. Thank you, Mr. Chairman, Ranking Member 
Balderson. It is great to be here today and great to see the 
witnesses. I apologize. I had to step away for another 
simultaneous meeting so I did not catch all the witnesses' 
testimony but certainly being a small business owner for over 
35 years, and this will be the fourth of these type of 
catastrophic events. Obviously, the ``best,'' and I will put 
that in quotes, is the last. And so we always learn from these 
type of events. Or we should be learning, and those who learn 
come out stronger and those who do not usually do not come out.
    We talked a lot about what you all are doing, or really 
kind of put a lot of onus on that. I want to get to that in a 
second. But we, in Congress, and this is a very bipartisan 
Committee, and we recognize the importance of small business 
and those entrepreneurs that create so many jobs in America, 
and we have put a lot of money into, I will call it ``the 
system,'' the economy over the last 3 months, 3-1/2 months, 
particularly money into individuals' pockets. An extra $600 a 
week that expires in a couple of weeks. Direct stimulus checks. 
I have conversations on both of those next week. What have you 
seen from citizens? You can go recruit all day long but if 
there is not an initiatives by people who are getting this 
extra money to see something beyond 2 weeks, what are you 
seeing from folks that are levying one job that says, hey, this 
is my opportunity. I am no longer working there right now. I am 
furloughed for an indefinite period. I am going to go get 
retrained in another area. Are you seeing that kind of intake 
from your particular educational institutions?
    We can start wherever. Ms. Nightingale?
    Dr. NIGHTINGALE. We do not have a lot of hard data on that 
right now, but we know that the training programs that are out 
there are having difficulty in two ways. One, recruiting and 
getting trainees to come in. The other is retaining 
partnerships with employers for some of the reasons that we 
have already heard. So it could be that we are in a little bit 
of a lull right now and as the economy starts improving, we may 
see more of an uptick on that. But from what I am hearing is 
that some of the training programs are having difficulty 
finding trainees and keeping employers engaged.
    Mr. HERN. Mr. Schaffer, in Oklahoma we have 29 career 
centers. I left Ohio a number of years ago, 30 years ago, I 
think. And so one of the best examples is a career center in 
the upper part of my district where they actually go out and 
talk to businesses and create programs to match those 
businesses and then train some of the businesses to produce 
workers for what they see emerging in certain fields. And that 
is in Bartlesville, Oklahoma and that is Tri-County Community 
College or Technical College.
    But as we go through this process it is going to be really 
important, and I think, I do not want to put words in your 
mouth, but I think you mentioned a minute ago you were waiting 
on CDC guidelines on how to reopen and things like that. People 
that are entrepeneurs or businesspeople, I would bet you Ms. 
Moore is not waiting on CDC or somebody else to tell her how to 
keep her business open. She is figuring out every single day 
how to make that happen. That is what businesspeople do. If you 
wait on the government to tell you what to do you will be very 
ineffective. As the needs arise for small business, I would 
encourage each of you, and this is not a scolding, this is an 
encouragement, to not wait on the Federal government to tell 
you what to do. The best ideas come from out in the 
communities. Out in the, you know, you all are very, very 
bright people. You have got great institutions. I assure you no 
small businessperson worth their salt is waiting on the Federal 
government to tell them how to survive. And I would just 
encourage you, you know, I might just ask you that question, 
you know, what are some of the best bets that you are looking 
at that you might want to share here in my remaining one 
minute, to get your schools reopened in a proper way? Because I 
know whether you are a democrat or republican or do not give 
two hoots about politics, you know it is important to educate 
our workforce and our children.
    Mr. Schaffer, do you want to start that?
    Mr. SCHAFFER. Thank you, Mr. Chairman, Representative Hern.
    I would tell you, no disrespect to government or Congress, 
we are having to act. Our Board of Trustees 2 weeks ago 
approved our reopening plan.
    Mr. HERN. That is great.
    Mr. SCHAFFER. That is an aggressive opportunity for 
continued education. We are going to focus where the greatest 
needs are, so our on-campus, in-person instruction is going to 
be focused in the technology, the trades, healthcare, to make 
sure that that pipeline of those workers continues even in a 
pandemic.
    To your previous point, just quickly, Representative Hern, 
we go out and we work with employers all the time to customize 
programs for them. They are oftentimes short-term programs very 
tailored. It is one of the reasons why we support the concept 
of short-term Pell. We have to find ways to provide financial 
assistance for people to quickly get retrained and back to 
work.
    Mr. HERN. Thank you.
    Mr. Chairman, thank you. I yield back.
    Chairman CROW. The gentleman yields back.
    And I believe the members present have all asked questions 
at this point. So if additional members join, we will give them 
an opportunity, but I do want to go for a quick second round. 
And I will start by giving myself an additional 5 minutes.
    This issue of the urban rural divide that Dr. Schaffer and 
the others referenced earlier is of particular interest to me. 
And I think one of the issues, we had some hearings on the 
broader Committee on this in the past and in doing some work 
with Senator Inhofe and some others on this issue, is the issue 
of broadband, which is really the long pole in the tent for so 
much of this in terms of how do we make it as easy to start a 
business or run an apprenticeship program or a job training 
program in Wyoming as it is in New York, make it as easy in 
Oklahoma as it is in California. Leveling the playing field 
here. I would love thoughts from all of you in terms of the 
impact of broadband and what you think we need to be doing more 
of at our level.
    Maybe we can start with Ms. Folks on this one.
    Ms. FOLKS. Thank you. Yes. I think that is a serious issue, 
not being able to have the availability of broadband in the 
rural areas. It is also a serious issue that we have seen 
through the pandemic with our lower-income individuals as well. 
They may have broadband available, but they do not have a way 
to maybe pay for that and to be able to have Internet services 
or be able to know how to access when things are shut down. And 
so some of the areas we are really working on is how to 
develop, we have sector partnerships that we are building and 
broadband to work hand in hand with the business and industry 
to really help tell us how to get it out there, how to build 
apprenticeships, and how to develop that. And we continue to 
work with our rural areas. I have some of that, not much in our 
area, so we continue to work with them and our community 
colleges on how do we develop those types of apprenticeship 
opportunities to be able to get that. But also, then working, 
like I said, with businesses to get the broadband out there.
    Just quickly, one of the partnerships we do have is working 
to get that into our customers' hands. So part of not only 
paying and supporting them and training; it is also supporting 
them with those support services to get them that as well so 
that they can be successful.
    Chairman CROW. Thank you.
    In my 2 minutes I have remaining I would love to hear maybe 
1 minute each from Mr. Schaffer and Dr. Nightingale on that 
issue, and then Ms. Moore, I move back with you additionally in 
a moment.
    Dr. Schaffer?
    Mr. SCHAFFER. Thank you, Mr. Chairman.
    Broadband is certainly an issue for us. It is an issue 
across rural America. And when I talk about Main Street, it is 
truly an issue on our historical Main Streets in trying to find 
a way to bring connectivity to our downtowns in smaller 
communities. The broader issue I think really pertains to 
infrastructure because population, and as a result, revenues do 
not follow substantially enough to reinvigorate or install new 
infrastructure in these communities. They are just hamstrung, 
and it makes it more and more difficult to learn and to work 
and really have a life in that environment. So broadband is a 
big issue, but I would say general infrastructure is also an 
issue once you move out of metro areas.
    Chairman CROW. Thank you.
    Dr. NIGHTINGALE. I was asked that. Certainly, additional 
funding for infrastructure development that is focused on IT 
could have a major effect, especially in rural areas just as 
rural electrification many decades ago did. And with some 
investment on subsidized employment which we heard a little bit 
about from Ms. Folks, that there could be a combined investment 
by Congress that invest in subsidized employment to provide the 
additional staff for facilitating the use of the technology 
that the investment in IT infrastructure and broadband could 
support. So it is a combination of developing the broadband but 
then also having the technical training for people to use it 
appropriately.
    Chairman CROW. Great. Thank you.
    Ms. Moore, in 20 seconds, do you have any thoughts on that?
    Ms. MOORE. I do. Not only is it the availability of 
broadband but it is the quality of the broadband. Particularly, 
in our area where it is very rural. We have stability issues. 
We have accessibility issues. So that is another consideration 
that possibly these companies will have to be incentivized to 
provide not only broadband but quality broadband.
    Chairman CROW. Okay. Thank you.
    Now, I wanted to open it up. I think Mr. Balderson, the 
Ranking Member, would be up next. I do not know whether Mr. 
Balderson is still with us or not at this point. Troy, are you 
still on?
    Give him a moment.
    Well, we will see whether he is having some technical 
issues which he might. I want to give myself another 5 minutes. 
That is the benefit of being the Chair.
    I actually would love to maybe give each of you a minute in 
that 5 minutes to ask a broad open question. If you had a magic 
wand and you could have Congress focus on one thing to address 
the biggest challenge you are facing right now, what would that 
be?
    So let's maybe start in the reverse order again from which 
we just ended, and we will start with Ms. Moore.
    Ms. MOORE. I believe the assistance to the education system 
in coordinating and advertising these programs and connecting 
them with the employers who directly need these positions. 
Overseeing a very coordinated effort.
    Chairman CROW. Almost like a [inaudible] role.
    Ms. MOORE. Exactly. Exactly.
    Chairman CROW. Dr. Nightingale?
    Dr. NIGHTINGALE. I think that probably to me one of the 
most important things is to expand the resources for the local 
job centers and to expand it in a way that allows the centers 
to have more people there accessing the services, particularly 
in the nonurban areas or in high unemployment areas because 
there are resources for training that can be accessed but the 
people need to know how to access those resources effectively.
    Chairman CROW. Thank you, Doctor.
    Dr. Schaffer?
    Mr. SCHAFFER. Thank you, Mr. Chairman. I have trouble 
choosing so I will only pick two. The first one of course is 
the establishment of a major community college job training 
program. Something similar on the magnitude, it is bigger than 
the TAACCCT grants that were very successful, something similar 
to what is being proposed in the Relaunching America's 
Workforce Act or perhaps the Access to Careers Act or even the 
Community College Training Program and the Coronavirus Child 
Care and Education Relief Act. We need to stimulate new 
training, new opportunities in workforce development funding to 
community colleges at that scale are critical as Dr. 
Nightingale said. I would also suggest during the 
reauthorization of WIOA, we really think about resources, we 
think about further [inaudible] of partners, and we think about 
ways to streamline and maybe allow for the authorization of 
community college applied programs in a more effective and 
efficient manner.
    Chairman CROW. Thank you, Dr. Schaffer.
    And Ms. Folks, as the Coloradoan on the panel you get the 
distinction of having the final word.
    Ms. FOLKS. Thank you.
    You know, I think for us, similar to what was said, it is 
the resources and the funding but most importantly also with 
that is the flexibility to be able to meet what the local 
community needs are and to be able to really listen to our 
business and industry and what they are telling us. When we 
have a lot of regulation, and I know it needs to be there but 
when there is too much it makes it difficult for us to really 
build those innovative programs which we really need right now 
especially to get people back. And so being able to have that 
flexibility is very important for us along with the resources 
and funding because then we can build programs that are going 
to meet the needs of the business and industry and our 
communities, and we can have those more creative ways of making 
sure we get our people back to work.
    Chairman CROW. Thank you, Ms. Folks.
    So with that, our time has run out here. I know we could 
probably talk for the rest of the day or days on this topic 
because there is really so much to address, but we do 
appreciate your time.
    So again, thank you to all of our witnesses today for your 
testimony and for offering their views on how to get millions 
of unemployed Americans back to work. By sharing your 
experiences and expertise, we, as the policymakers in 
Washington that are looking at how to guide resources and also 
coordinate the various efforts going on, really need to hear 
your perspectives. So you all are where the rubber meets the 
road here, you are providing the direct resources, the direct 
training and making it happen in your communities, and it is 
really your voices that are the most important for us to hear 
during this crisis. So thank you. I look forward to the 
opportunity to work with you and your organizations to figure 
out ways that we can be more helpful and lift up all of your 
efforts.
    So I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned today. Thank you. Thank you all.
    [Whereupon, at 2:06 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            



                                 <all>
</pre></body></html>
